FBI Child Support
May 25, 2000
MEMORANDUM FOR LOUIS FREEH
DIRECTOR
FEDERAL BUREAU OF INVESTIGATION
FROM: MARY W. DEMORY
ASSISTANT INSPECTOR GENERAL
FOR INSPECTIONS
SUBJECT: Federal Bureau of Investigation Compliance with
Federal Agency Child Support Efforts, I-2000-016
The nation's child support enforcement
program has strengthened the enforcement of child support dramatically
in recent years. In 1999, $15.5 billion was collected on behalf of children,
nearly doubling the amount collected in 1992, according to data from the
Department of Health and Human Services (HHS), Office of Child Support
Enforcement. Despite increasing collections, millions of families are still
not receiving the support they are owed. Overall collection of child support
continues to be low; currently, only about one-half of the parents due
child support receive full payment. The collection of child support is
a critical part of the effort to help families attain self-sufficiency.
The Attorney General has emphasized that all Department of Justice (DOJ)
agencies will cooperate in collecting owed child support payments.
This review of child support enforcement
at the Federal Bureau of Investigation (FBI) was initiated as part of a
joint pilot project of the President's Council on Integrity and Efficiency
by the DOJ and HHS Offices of the Inspector General. The goal of this pilot
project is to determine whether Federal employees are current in their
child support payments, and whether Federal agencies cooperate with child
support enforcement efforts against Federal employees. For this memorandum,
we examined how the FBI is working with the Office of Child Support Enforcement
to ensure that all FBI employees who owe child support are paying it.
We found that the FBI is meeting its
obligations to ensure that FBI employees pay owed child support. The FBI
conducts a weekly data match of its payroll records with Office of Child
Support Enforcement data, and returns appropriate information to the Office
of Child Support Enforcement for state enforcement efforts. Furthermore,
the FBI implements wage withholding notices pursuant to child support court
orders in a timely and efficient manner.
Background
Executive Order for Federal Agencies to be Model Employers
On February 27, 1995, the President signed
Executive Order 12953 (Order), establishing the Federal government as a
model employer in facilitating the establishment and enforcement of child
support orders. As the nation's largest single employer, the Order states
that the Federal government should set an example of leadership in the
collection of child support due from employees. The Order requires Federal
agencies to cooperate with state efforts to establish paternity and child
support orders; implement wage withholding; and enforce the collection
of medical support.
Under the Order, the Office of Personal
Management is required to publish annually in the Federal Register a list
of representatives for each Federal agency to receive income withholding
notices for Federal employees and to assist in the serving of state child
support court orders. The Order requires an annual cross-match of Office
of Child Support Enforcement data of persons with child support arrears
with the payroll files of Federal agencies to identify Federal employees
with child support delinquencies. The names of any Federal employees identified
in the match are to be sent to the appropriate state child support enforcement
agency for them to determine whether wage withholding or other enforcement
actions should take place. Federal agencies are then required to comply
with enforcement actions needed by the state, primarily withholding wages
from the employee's paycheck. These employees are child support payment
obligors.
Personal Responsibility and Work Opportunity Reconciliation Act Requirements
for Employers
In 1996, the Personal Responsibility
and Work Opportunity Reconciliation Act (the Act) mandated that the Office
of Child Support Enforcement and the states establish a national database
of employment information, known as the National Directory of New Hires,
with information from state employment agencies and Federal employers.
All Federal employers are required to routinely submit new hire employment
and quarterly wage data for all Federal employees to this database. Since
October 1, 1998, the National Directory of New Hires database has been
matched with the Federal Case Registry, a registry of all child support
cases reported by the states. The Office of Child Support Enforcement maintains
the registry and sends any data matches back to the appropriate state child
support enforcement agencies. According to the Office of Child Support
Enforcement, the required matching of the National Directory of New Hires
against the Federal Case Registry superseded the match requirement in the
Order. The Act included an exemption from submitting data to the National
Directory of New Hires for agencies whose Federal employees are involved
in counterintelligence activities.
In 1997, FBI Director Louis Freeh claimed
an exemption from this requirement to submit wage and new hire data to
the National Directory of New Hires by virtue of the counterintelligence
activities of FBI employees. However, the Director agreed that the FBI
would participate in an alternative matching process with the Office of
Child Support Enforcement. In a 1997 letter to the Secretary of HHS, the
FBI Director offered to pursue other actions if HHS felt that this alternative
match was not sufficient. HHS did not request that the FBI take any additional
action. Two other Federal agencies, the Central Intelligence Agency and
the National Security Agency, have also claimed exemptions.
Wage Withholding
State and local child support enforcement
agencies use a variety of mechanisms to collect child support when a non-custodial
parent does not pay. These include liens on property; offset of unemployment
compensation payments; seizure and sale of property; credit bureau reporting;
seizure of state and Federal income tax refunds; and imprisonment, fines,
or both. The most widely used and effective enforcement tool is wage withholding.
Nearly 60 percent of all child support is collected through wage withholding
by employers.
Upon receipt of a notice from a state
child support enforcement agency to withhold income, Federal employers
must provide a copy of the notice to the employee and begin withholding
income within 30 days of receiving the order/notice (or longer per requirement
of the employee's work state). Federal employers are required to continue
withholding the required amount of income until official notification is
received to stop. Any disagreements the employee has with the order are
resolved by the employee and the issuing state child support enforcement
agency. The Federal employer is required to abide by the withholding order/notice
as issued. Additionally, the Federal employer is required to notify the
state child support enforcement agency if the employee quits, is injured
or ill, or is fired.
Results
Neither the FBI, nor any other Federal
agency, is able to identify all of its employees who are delinquent in
paying owed child support. There is no database or list that contains all
delinquent obligors for the FBI or for any other Federal agency or department,
nor are there databases that, if matched against one another, could provide
the information. The FBI must rely on state child support enforcement agencies
for notification of court orders and wage withholding notices against FBI
employees. If the FBI does not receive such notification, the FBI remains
unaware of any child support delinquencies of FBI employees.
The FBI Conducts a Weekly Data Match and Returns the Results
Because of security concerns, the FBI
has never participated in the annual match required by the Order or submitted
data to the National Directory of New Hires. However, the FBI, in conjunction
with the Office of Child Support Enforcement, developed an alternative
procedure to ensure that its employees are paying owed child support. This
alternative matching process addresses FBI concerns about protecting the
confidentiality of employee identities and meets the Office of Child Support
Enforcement's need to access data on FBI employees.
The FBI's alternative matching process
has been occurring since 1997. Every week, the Office of Child Support
Enforcement sends names and social security numbers of individuals the
states are seeking for enforcement of child support orders to the FBI.
1  The FBI then matches the names and
social security numbers against its payroll records of all employees, including
special agents. If any matches are identified, the FBI sends the names
and social security numbers, along with corresponding address information,
back to the Office of Child Support Enforcement. The FBI sends the Office
of Child Support Enforcement address information for current employees,
as well as the last known address for former employees. The Office of Child
Support Enforcement forwards the information to the appropriate states
for enforcement efforts. No other Federal agency has established such alternative
procedures, including other agencies with national security interests similar
to the FBI (i.e., the Central Intelligence Agency and the National Security
Agency).
Timely and Efficient Implementation of Wage Withholding
We found that the FBI is processing child
support orders and establishing wage withholding in a timely manner. The
FBI Finance Division has established wage withholding for all of the 299
employees for whom they have received child support court orders and wage
withholding notices. These FBI employees represent only those employees
who pay their child support through enforced wage withholding deductions.
As with other Federal agencies, we do not know how many FBI employees pay
their child support through voluntary means (for example, by writing a
biweekly or monthly check for child support rather than having the amount
garnished from their wages). A total of $75,671 is deducted every pay period
from the wages of those 299 employees. Of the 299, 24 FBI employees are
in arrears on their child support payments. All 24 FBI employees are currently
paying off their arrears through wage withholding deductions. Those 24
employees owe a total of $57,429 in child support arrears. 2
See Attachment 1 for a comparison of these figures with those of other
DOJ components.
To assess the process and timeliness
of the FBI in establishing wage withholding after receiving court orders
from the states, we reviewed a systematic random sample of 30 of the 299
files of FBI employees with child support orders and wage withholding notices.
In all of the cases since 1997, wage withholding was established within
three weeks of the FBI's receipt of the child support court order, or in
the first full pay period after receipt of the order. All of the files
in our sample included necessary information such as a notification letter
to the employee that wage withholding would commence, and address information
for the custodial parent.
Conclusion
The FBI is meeting the intent of both
Executive Order 12953 and the Personal Responsibility and Work Opportunity
Reconciliation Act of 1996 by seeking to ensure that FBI employees pay
owed child support. The FBI performs a weekly data match of its payroll
with data provided by the Office of Child Support Enforcement. The FBI
assists the state child support enforcement agencies by providing employee
information to the Office of Child Support Enforcement that the states
use in their efforts to establish paternity and to enforce child support
orders. In addition, the FBI is implementing wage withholding pursuant
to court orders sent to the FBI from state child support enforcement agencies
in a timely and efficient manner.
We appreciate the cooperation that your
staff extended to us as we conducted our review. If you have any suggestions
as to how we might improve our review process, or if we can provide you
with any additional information, please let us know.
Attachment
cc: George Grob
Assistant Inspector General for the
Office of Evaluation and Inspections
Department of Health and Human Services
David Gray Ross
Commissioner, Office of Child Support Enforcement
Department of Health and Human Services
Vickie L. Sloan
Director, Audit Liaison Office
Department of Justice
1. The
data the Office of Child Support Enforcement sends to the FBI on a weekly
basis is from the Federal Parent Locator Service. The Federal Parent Locator
Service contains data on all individuals the states are seeking to establish
paternity, to appear in court, or to enforce child support collection.
The States report data to the Federal Parent Locator Service on an on-going
basis. Every week, the Office of Child Support Enforcement sends all the
Federal Parent Locator Service records to the FBI for the FBI to match
against its payroll records.
2. These
figures were current as of May 10, 2000.